IN THE SUPREME COURT OF THE UNITED STATES

MARTINEZ LOPEZ, ELIBER U.
Petitioner
vs.

No:

20-0841

ROBERT M. WILKINSON, ACTING ATTORNEY
GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
January 22, 2021
cc:
GREGORY L. CURTNER
RILEY SAFER HOLMES & CANCILA
LLP
121 W. WASHINGTON STREET
SUITE 402
ANN ARBOR, MI 48104

